<html>
<title> - FIELD HEARING ON EFFORTS TO PREVENT AND ADDRESS CHILD SEX TRAFFICKING IN WASHINGTON STATE</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]





                  FIELD HEARING ON EFFORTS TO PREVENT
                         AND ADDRESS CHILD SEX
                    TRAFFICKING IN WASHINGTON STATE

=======================================================================

                                 HEARING

                               before the

                    SUBCOMMITTEE ON HUMAN RESOURCES

                                 of the

                      COMMITTEE ON WAYS AND MEANS
                     U.S. HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS
                               __________

                             SECOND SESSION
                               __________

                           February 19, 2014
                               __________

                            SERIAL 113-HR10
                               __________

         Printed for the use of the Committee on Ways and Means



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                        U.S. GOVERNMENT PUBLISHING OFFICE 

94-401 PDF                     WASHINGTON : 2016 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001













                      COMMITTEE ON WAYS AND MEANS

                     DAVE CAMP, Michigan, Chairman

SAM JOHNSON, Texas                   SANDER M. LEVIN, Michigan
KEVIN BRADY, Texas                   CHARLES B. RANGEL, New York
PAUL RYAN, Wisconsin                 JIM MCDERMOTT, Washington
DEVIN NUNES, California              JOHN LEWIS, Georgia
PATRICK J. TIBERI, Ohio              RICHARD E. NEAL, Massachusetts
DAVID G. REICHERT, Washington        XAVIER BECERRA, California
CHARLES W. BOUSTANY, JR., Louisiana  LLOYD DOGGETT, Texas
PETER J. ROSKAM, Illinois            MIKE THOMPSON, California
JIM GERLACH, Pennsylvania            JOHN B. LARSON, Connecticut
TOM PRICE, Georgia                   EARL BLUMENAUER, Oregon
VERN BUCHANAN, Florida               RON KIND, Wisconsin
ADRIAN SMITH, Nebraska               BILL PASCRELL, JR., New Jersey
AARON SCHOCK, Illinois               JOSEPH CROWLEY, New York
LYNN JENKINS, Kansas                 ALLYSON SCHWARTZ, Pennsylvania
ERIK PAULSEN, Minnesota              DANNY DAVIS, Illinois
KENNY MARCHANT, Texas                LINDA SANCHEZ, California
DIANE BLACK, Tennessee
TOM REED, New York
TODD YOUNG, Indiana
MIKE KELLY, Pennsylvania
TIM GRIFFIN, Arkansas
JIM RENACCI, Ohio

        Jennifer M. Safavian, Staff Director and General Counsel

                  Janice Mays, Minority Chief Counsel

                                 ______

                    SUBCOMMITTEE ON HUMAN RESOURCES

                DAVID G. REICHERT, Washington, Chairman

TODD YOUNG, Indiana                  LLOYD DOGGETT, Texas
MIKE KELLY, Pennsylvania             JOHN LEWIS, Georgia
TIM GRIFFIN, Arkansas                JOSEPH CROWLEY, New York
JIM RENACCI, Ohio                    DANNY DAVIS, Illinois
TOM REED, New York
CHARLES W. BOUSTANY, JR., Louisiana















                            C O N T E N T S

                               __________

                                                                   Page


Advisory of Febuary 19, 2014 announcing the hearing..............     2

                               WITNESSES

Jeanne Kohl-Welles Senator, 36th Legislative District of 
  Washington.....................................................     7
John Urquhart, Sheriff, King County, Washington, Testimony.......    17
Reagan Dunn, Councilman, King County, Washington, Testimony......    21
Noel Gomez, Cofounder and Director of Survivor Services, Seattle 
  Organization for Prostitution Survivors, Testimony.............    26
Mandy Urwiler, Senior Network Representative, The Mockingbird 
  Society, Testimony.............................................    31
Dawn Rains, Chief Operating Officer, Treehouse, Testimony........    35
 
                      FIELD HEARING ON EFFORTS TO
                     PREVENT AND ADDRESS CHILD SEX
                    TRAFFICKING IN WASHINGTON STATE

                              ----------                              


                      WEDNESDAY, FEBRUARY 19, 2014

             U.S. House of Representatives,
                       Committee on Ways and Means,
                                                   Washington, D.C.

    The subcommittee met, pursuant to call, at 9:00 a.m., in 
Council Chambers of the Auburn City Hall, 25 West Main Street, 
Auburn, Washington, the Honorable Dave Reichert [chairman of 
the subcommittee] presiding.
    [The advisory of the hearing follows:]

HEARING ADVISORY

  Chairman Reichert Announces Field Hearing on Efforts to Prevent and 
           Address Child Sex Trafficking in Washington State

    Council Chambers of the Auburn City Hall at 25 West Main Street in 
Auburn, Washington
Washington, Feb 19, 2014

    Congressman Dave Reichert (R-WA), Chairman of the Subcommittee on 
Human Resources of the Committee on Ways and Means, today announced 
that the Subcommittee will hold a hearing on Washington State's efforts 
to prevent child sex trafficking and protect youth in foster care from 
becoming victims of this crime. The hearing will take place at 9:00 
a.m. Pacific Standard Time on Wednesday, February 19, 2014, in the 
Council Chambers of the Auburn City Hall at 25 West Main Street in 
Auburn, Washington.
      
    In view of the limited time available to hear from witnesses, oral 
testimony at this hearing will be from invited witnesses only. 
Witnesses will include a law enforcement official, as well as 
representatives of organizations working to prevent child sex 
trafficking by reducing the vulnerability of youth in foster care. 
However, any individual or organization not scheduled for an oral 
appearance may submit a written statement for consideration by the 
Committee and for inclusion in the printed record of the hearing.
    In announcing the hearing, Chairman Reichert stated, ``This hearing 
will provide Congress with direct input from people on the front lines, 
such as law enforcement, local nonprofits, former foster youth, and 
survivors themselves, who are working to protect youth in foster care 
from sex traffickers. Their perspectives are critical and will inform 
our efforts to pass national legislation to do just that, ensuring more 
young people can grow up to lead healthy, successful lives.''
      

BACKGROUND:

      
    Recognized as one of the first states to pass laws criminalizing 
human trafficking, Washington has been a leader in preventing and 
addressing child sex trafficking. For example, Shared Hope 
International, a group focused on preventing sex trafficking around the 
world, recently recognized the work of Washington in both prosecuting 
those who traffic children for sex and in protecting victims of this 
crime, giving the State an ``A'' grade for its work. In addition, a 
variety of State and local stakeholders have worked together to develop 
a statewide Model Protocol for Commercially Sexually Exploited 
Children. This protocol will help law enforcement, the courts, victim 
advocacy organizations, youth service agencies, and other first 
responders in better identifying child sex trafficking as well as the 
risks that make children vulnerable to this crime.
    Reports suggest that children in the child welfare system are at 
heightened risk for being victims of sex trafficking. In 2010, 
officials in Los Angeles, California reported that 59 percent of 
juveniles arrested for prostitution were in the foster care system. Of 
children reported missing to the National Center for Missing and 
Exploited Children, who are also likely child sex trafficking victims, 
60 percent were in foster care or group homes when they ran away. 
Research shows the majority of sex trafficked youth experienced sexual 
abuse growing up, and that victims of sexual abuse are 28 times more 
likely to be involved in prostitution than children who have not 
suffered such abuse. As improvements in the child welfare system aimed 
at preventing childhood sexual abuse are considered, it is critical 
that child welfare agencies be equipped to do more to prevent and 
address the consequences of this crime, especially when youth in foster 
care are involved.
      

FOCUS OF THE HEARING:

      
    This hearing will highlight efforts by groups in the State of 
Washington to end child sex trafficking, prevent youth in foster care 
from becoming victims of this crime, and empower youth in foster care 
so they can achieve success.
      

DETAILS FOR SUBMISSION OF WRITTEN COMMENTS:

      
    Please Note: Any person(s) and/or organization(s) wishing to submit 
for the hearing record must follow the appropriate link on the hearing 
page of the Committee website and complete the informational forms. 
From the Committee homepage, http://waysandmeans.house.gov, select 
``Hearings.'' Select the hearing for which you would like to submit, 
and click on the link entitled, ``Please click here to submit a 
statement or letter for the record.'' Once you have followed the online 
instructions, submit all requested information. Attach your submission 
as a Word document, in compliance with the formatting requirements 
listed below, by March 5, 2014. Finally, please note that due to the 
change in House mail policy, the U.S. Capitol Police will refuse 
sealed-package deliveries to all House Office Buildings. For questions, 
or if you encounter technical problems, please call (202) 225-1721 or 
(202) 225-3625.
      

FORMATTING REQUIREMENTS:

      
    The Committee relies on electronic submissions for printing the 
official hearing record. As always, submissions will be included in the 
record according to the discretion of the Committee. The Committee will 
not alter the content of your submission, but we reserve the right to 
format it according to our guidelines. Any submission provided to the 
Committee by a witness, any supplementary materials submitted for the 
printed record, and any written comments in response to a request for 
written comments must conform to the guidelines listed below. Any 
submission or supplementary item not in compliance with these 
guidelines will not be printed, but will be maintained in the Committee 
files for review and use by the Committee.
      
    1. All submissions and supplementary materials must be provided in 
Word format and MUST NOT exceed a total of 10 pages, including 
attachments. Witnesses and submitters are advised that the Committee 
relies on electronic submissions for printing the official hearing 
record.
      
    2. Copies of whole documents submitted as exhibit material will not 
be accepted for printing. Instead, exhibit material should be 
referenced and quoted or paraphrased. All exhibit material not meeting 
these specifications will be maintained in the Committee files for 
review and use by the Committee.
      
    3. All submissions must include a list of all clients, persons, 
and/or organizations on whose behalf the witness appears. A 
supplemental sheet must accompany each submission listing the name, 
company, address, telephone, and fax numbers of each witness.
      
    The Committee seeks to make its facilities accessible to persons 
with disabilities. If you are in need of special accommodations, please 
call 202-225-1721 or 202-226-3411 TTD/TTY in advance of the event (four 
business days notice is requested). Questions with regard to special 
accommodation needs in general (including availability of Committee 
materials in alternative formats) may be directed to the Committee as 
noted above.
      
    Note: All Committee advisories and news releases are available 
online at http://www.waysandmeans.house.gov/.

                                 <F-dash>

    Chairman REICHERT. I appreciate everybody being here today. 
This is such an important topic, and I think one that, of 
course, everyone in this room clearly understands. As I went 
around and met each of you before the hearing, discovering what 
your roles are in helping to eliminate human trafficking, I 
know Jim and I both appreciate all the hard work that you do. 
It is not an easy task.
    We are also going to hear from some folks this morning, not 
only those who are working in the world of trying to prevent 
human trafficking, but we will also hear from folks who have 
nearly become involved in, or have been involved in, and are 
survivors. And I think it is important for us to hear from 
those folks as well.
    I will read part of a prepared statement. Today, we are 
doing what Congress, in my opinion, should do more of, and that 
is get out of Washington, D.C., and listen to real people who 
deal with critical issues like we are dealing with today. We 
are grateful for all of our witnesses, and thank you all for 
joining us today, and we look forward to your testimony.
    Your testimony will be made available on the Ways and Means 
Committee Web site for anyone around the country to read and, 
hopefully, use as communities work together to prevent sex 
trafficking.
    And I am pleased to be joined by my longtime colleague on 
the Ways and Means Committee, Jim McDermott. We are pleased to 
have Jim with us here today. He is the past chairman of the 
Human Resources Subcommittee and has a wealth of knowledge, as 
you might guess, about these issues from his days in the 
Washington State Legislature as well.
    I would also like to acknowledge Mayor Nancy Backus, 
Councilman Bill Peloza, and their staffs, and thank them all 
for their work in helping make this possible today.
    Before being elected to Congress, I was the sheriff of King 
County, as most of you know. And I spent nearly 33 years in the 
Sheriff's Office right here in King County. And I know that you 
also know I saw firsthand in my work, not only in the Green 
River case, but on patrol when I first started in the early 
'70s, the tragedy that occurs when young boys and young girls 
run away from home, leave their dysfunctional homes and end up 
on the street.
    And a lot of time, they end up in the arms of people who 
are there to do them harm, and they figure that out way too 
late. And in some cases, they lose their lives, and families 
are ripped and torn apart. In some cases, they survive, but 
they are scarred for life, living in that community, in that 
underworld.
    And it is so critical for us to take action to work 
together to end and eliminate human trafficking. These are 
children that we are talking about.
    Back in the Green River days, I can remember meeting young 
girls and young boys on the street who were 11 years old, 12 
years old. And I know that some of you today are still dealing 
with young children on the streets of our cities right here in 
our own communities.
    Back in August 1982, I was called to investigate with Kent 
Police Department the body of a young woman who was found in 
the Green River in Kent, only a few miles from where we are 
sitting right now. Three days later, I received a call about 
two more bodies, both young women. And then I found a third 
body at that same location.
    Little did I know on that day, but finding these victims 
began a 2-decade hunt for a man who became known as the Green 
River killer. Once caught, he confessed to killing between 60 
and 70 young women who had been involved in the sex trade.
    The first known victim of the Green River killer was Wendy 
Coffield. She was only 16 years old when she was killed. Wendy 
was living in a foster home when she ran away. But because she 
had run away before, no one was looking for her. We need to do 
more to protect kids like Wendy Coffield, and that is why we 
are all here today.
    To better understand this issue, we have already had 
several hearings in Washington, D.C. Our own Justice Bobbe 
Bridge joined us for one of those hearings when she summarized 
what has been happening here in Washington, and also provided 
us with recommendations for national reforms.
    Based on her recommendations and those of other experts, 
this last week, I introduced legislation to help every State 
better protect youth in foster care from being victims of sex 
trafficking. And I was pleased to be joined in introducing that 
bill by my colleague Lloyd Doggett of Texas, who currently 
serves as the lead Democrat on the subcommittee, as well as Mr. 
McDermott, who also serves on the Ways and Means Committee. 
Other Congressional committees have also been working on 
strengthening penalties on traffickers and johns, as well as 
preventing international trafficking.
    Later this year, I expect the House will act on all of 
those bills, and I am confident we will be able to get our 
legislation to the President's desk. The reason I am confident 
is because the approach we are taking is practical, based on 
State experience, and it is bipartisan.
    As Jim can tell you, when we get the lead Republican and 
the lead Democrat on a subcommittee to agree on a bill, that is 
usually a formula for success.
    Our bill will not increase our debt, but we will ensure 
that all States take real steps to better understand the 
problem and keep kids safe while they are in foster care. That 
is a beginning and not an end.
    Ultimately, making this work will require having 
discussions like this one in communities all across the 
country. This community is uniquely suited to lead that 
conversation and show the way.
    Again, many thanks to all of you who are here today, 
playing a part in doing just that.
    I now recognize Mr. McDermott for his opening statement.
    Mr. MCDERMOTT. Thank you very much, Dave.
    You are witnessing a rare occurrence, I think, in the 
modern-day Congress, a Democrat and a Republican working 
together on something. This subcommittee has had a long history 
of being very nonpartisan, because the issue that we are 
dealing with here is not Democrat, is not Republican. It is 
kids that are ground up in the system.
    And the bills that I put through when I was the chairman, 
the Foster Connections and some of the other acts, related to 
foster kids and the things that Dave is putting through, and 
people before me, are always bipartisan. In fact, my bills went 
through the House, both with me as chairman and with a 
Republican as chairman, with no votes against it, because we 
worked together on this issue.
    And I think that Dave is to be commended for having this 
hearing.
    The issue, it seems to me, of trafficking is sometimes--I 
want to make sure people understand we are talking not only 
about girls, but also about boys, because that is a real part 
of this problem. And the tie to foster care is a very tight one 
in many, many, many instances because youngsters get into a 
foster situation and decide, for whatever reason, they can't 
stand it. And they leave when they are under 18, or they come 
to the age of 18 and they age out of foster care and have no 
other resources.
    So they go out in the streets, and drugs and prostitution 
are right there. And it is a way to live, a terrible kind of 
life, but it is a way to do it.
    And the efforts to interrupt that, I think, are what we are 
really here to talk about today. And I would rather listen to 
the witnesses than talk.
    I am a child psychiatrist, and I have been doing it since 
1970. I started out at Cascadia and a lot of other places where 
youngsters who are in these situations wind up, and I have seen 
it all.
    But we have had our problems in finding the resources to 
actually help these kids on a widespread basis. And I would 
like to hear what is going on today.
    So thanks, Dave. And thanks for all of you for coming in to 
testify.
    Chairman REICHERT. Great, Jim. Thank you so much.
    And without objection, each member will have the 
opportunity to submit a written statement and have it included 
in the record at this point.
    Chairman REICHERT. I want to remind our witnesses to please 
limit their oral statements to 5 minutes. However, without 
objection, all the written testimony will be made a part of the 
permanent record.
    So if panelists would please take your seats at this time, 
we will introduce you and we will begin our testimony.
    Thank you.
    So on our panel this morning, we will be hearing from 
Jeanne Kohl-Welles, a senator of the 36th Legislative District 
of Washington. Thank you for being here, Senator.
    John Urquhart, the sheriff of King County. John, thanks for 
being here.
    Reagan Dunn, councilman, King County. Reagan, thank you for 
being here.
    Noel Gomez, cofounder and director of Survivor Services, 
Seattle Organization for Prostitution Survivors. Noel, thank 
you for being here today.
    Mandy Urwiler, senior network representative, The 
Mockingbird Society. Mandy, good to see you again. Thank you 
for being here this morning.
    Dawn Rains, chief operating officer of Treehouse. Dawn, 
thanks for being here this morning.
    Senator, you are recognized for your statement this 
morning. Thank you.

  STATEMENT OF JEANNE KOHL-WELLES, SENATOR, 36TH LEGISLATIVE 
                     DISTRICT OF WASHINGTON

    Ms. KOHL-WELLES Thank you for the opportunity to testify 
this morning on this important issue.
    As you noted in your advisory, Washington State has been a 
leader in the Nation on antisex trafficking legislation since 
former State Representative Velma Veloria began championing 
this effort in the Legislature in 2002.
    Washington was the first State to outlaw human trafficking. 
And between 2002 and 2013, the Legislature passed 33 bills, all 
with bipartisan leadership and supporters.
    But sex trafficking, as well as all forms of human 
trafficking, is a pervasive and ever-changing social problem. 
It occurs in many forms, from mail-order bride trafficking, 
including two murders in our State, to false advertisements for 
au pairs, and to the coercion of minors and children being 
trafficked via the Internet.
    Unfortunately, though, 33 antitrafficking bills over 11 
years only begins to address this horrifying commodification of 
human beings. Domestic sex trafficking of minors came to light 
in the mid-2000s as a recognizable term, with considerable 
awareness brought by former U.S. Congresswoman Linda Smith and 
Shared Hope International, API Chaya, the Committee for 
Children, Seattle Against Slavery, and YouthCare, among others.
    We have made a great deal of progress in passing 
legislation and, I believe, also in raising awareness among the 
public.
    We began our work, mainly, on sex trafficking of minors 
with Senate Bill 5718, passed in 2007. It created a new crime 
of commercial sexual abuse of a minor, which replaced the crime 
of patronizing a juvenile prostitute. Follow-up legislation in 
2009 and 2010 strengthened penalties and allowed for diversion 
of cases for those minors who agreed to participate in 
wraparound services.
    We also, in 2010, with the efforts of Seattle Against 
Slavery and with the State Attorney General Rob McKenna, 
permitted placement of informational posters in rest stops 
along I-5 and other State highways in conjunction with the 
winter Olympics taking place in British Columbia, which seemed 
to be placing more youth at risk.
    Treating victims of trafficking, especially children and 
minors, as victims rather than criminals has been an important 
component of the laws we have enacted.
    Children are not prostitutes. They are victims. They are 
coerced or forced into this practice by perpetrators and need 
to be protected and assisted, not jailed.
    Another important component to the way sex trafficking of 
minors is being addressed in Washington is by meeting head on 
the challenges that technology and the Internet pose when 
addressing this problem. Twelve bills became law in 2012--we 
have a handout for you--including a bill that was the first of 
its kind in the country relating to the online advertiser 
Backpage.com.
    Senate Bill 6251 created a new crime of publishing adult 
escort ads involving minors while providing an affirmative 
defense for advertising businesses that verify the age of the 
individuals depicted in the ads, which Backpage does not do. It 
was passed unanimously by the Legislature. And, unfortunately, 
when it came into effect, Backpage.com sued the State in 
Federal court charging the new law violated the First Amendment 
and the 1996 Federal Communications Decency Act.
    After the case was settled, Senate Bill 5488, passed in 
2013, repealed the law and imposed an additional fine of $5,000 
for using online ads to facilitate the commercial sexual abuse 
of a minor.
    I am running out of my time, so you will have to read my 
written testimony, but I am pleased that we did pass just 
yesterday before our 5 p.m. cutoff to get bills out of their 
house of origin, Senate Bill 6017, which allows local law 
enforcement to seize materials and properties used in 
connection with child pornography and commercial sexual abuse 
of a minor, and to keep more of the assets in order to defray 
the costs of investigations and reapply the funds to future 
investigations in this bill.
    Thank you very much for inviting me.
    [The prepared statement of Ms. Kohl-Welles follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    

    Chairman REICHERT. Thank you, Senator.
    We have an emergency over to my right.
    [Laughter.]
    Chairman REICHERT. Sheriff, you are recognized for 5 
minutes for your testimony.

  STATEMENT OF JOHN URQUHART, SHERIFF, KING COUNTY, WASHINGTON

    Sheriff URQUHART. Thank you, Mr. Chair. I am very honored 
to appear today before this committee.
    The trafficking of our youth is an abhorrent practice, and 
the issue is long overdue for the type of publicity and 
exposure it seems to be finally receiving.
    While any one of any age can be trafficked, the legislation 
we are here to discuss today focuses on a subset of girls and 
boys who are especially vulnerable to becoming victims of this 
form of modern-day slavery.
    Mr. Chair, I have been a police officer for 38 years. You 
were my sergeant back in the day, and as we both know, society 
did not always view those trapped in the sex trade as victims. 
We had other words for them: hooker, prostitute, and 
streetwalker, to name a few. ``Victim'' was never one of those 
words.
    Sure, we occasionally arrested the johns who were out there 
soliciting, but you and I both know it was much easier to make 
a case against the woman working the street than her customer.
    I spent a lot of time on patrol and then as a vice 
detective on Pacific Highway South, which eventually became the 
City of SeaTac.
    I investigated and arrested people for prostitution. Those 
were my marching orders. And I arrested a lot of women, and 
occasionally girls, who were selling their bodies. And 
virtually all of them went to jail or the youth center.
    Mr. Chair, those days do not stir up feelings of nostalgia 
for me. But as society evolves, as people evolve, so must law 
enforcement evolve.
    Thankfully, this groundswell of evolution has occurred in 
Washington State at all levels of government. For years, the 
Office of Attorney General, through two administrations, has 
made fighting human trafficking one of its top priorities. 
Locally, the King County Council, with the leadership of 
Councilmember Dunn, has allocated specific funding for public 
health and to the Sheriff's Office to raise awareness and to 
understand the problem of human trafficking better.
    King County Superior Court Judge Barbara Mack is chairing 
the Commercially Sexually Exploited Children Task Force to 
develop and implement a coordinated, countywide response to 
childhood prostitution. The King County prosecutor, Dan 
Satterberg, takes cases of human trafficking very seriously and 
even obtained Washington State's first conviction under our 
human trafficking statute.
    And my patrol deputies and detectives in the Sheriff's 
Office place a high priority on locating and rescuing those who 
have been coerced, beaten, or otherwise trafficked against 
their will.
    Last year, we implemented mandatory training for all 
commissioned personnel to recognize the signs of human 
trafficking. My deputies now have a broader base of resources 
for which to refer victims.
    And every day we partner with the Federal Government on a 
joint task force to fight human trafficking. We constantly 
share information and resources with the U.S. Attorneys' Office 
locally, because oftentimes investigating the perpetrators of 
this crime takes us across jurisdictional boundaries.
    Mr. Chair, the legislation discussed today addresses a 
systemic failure for our children who have no choice but to 
depend on the State for their welfare. As you, yourself, have 
quoted, 59 percent of juveniles arrested in Los Angeles for 
prostitution were in the foster care system. Sixty percent of 
child sex trafficking victims were in foster care or group 
homes before they ran away.
    These statistics are simply astounding. They came as a 
surprise to me, but I am not so sure the numbers surprised 
everyone in this room. This room is filled with service 
providers who have spent years trying to convince the public 
that the vast majority of those involved in the sex trade have 
been victims of abuse in the past, making them that much more 
susceptible for continued abuse.
    There is nothing voluntary about a child who has engaged in 
survival sex. There is nothing voluntary about a woman whose 
pimp coerces and pressures her into engaging in sex for money, 
just to have the pimp keep the proceeds. And there is 
absolutely nothing voluntary about any adult paying any child 
for sex.
    I spoke earlier about a certain level of lack of sympathy 
law enforcement used to have for the victims caught up in the 
sex trade. Thankfully, Mr. Chair, I suspect you were ahead of 
the times in those days. One has to only know your personal 
history as a teenager, or have watched the level of compassion 
and determination for justice you showed for the victims of the 
Green River killer, to know that this issue has been and will 
always be near and dear to your heart.
    No, I am not nostalgic for those days. But putting that 
different time into perspective shows how far we have come in 
recognizing and fighting human trafficking. Simply put, this 
legislation will save lives, and I thank you for taking up the 
cause.
    Thank you.
    [The prepared statement of Sheriff Urquhart follows:]
   
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]  
   
   

    Chairman REICHERT. Sheriff, thank you for your testimony.
    Councilman Dunn, you are recognized for 5 minutes.

 STATEMENT OF REAGAN DUNN, COUNCILMAN, KING COUNTY, WASHINGTON

    Mr. DUNN. Thank you, Mr. Chairman, for holding this 
hearing. Congressman McDermott, as well. We are grateful for 
this. It is such an important issue. I wanted to highlight some 
of the work that King County has done to fight human 
trafficking.
    It is estimated that, this year alone, between 300 and 500 
young people--mostly women, but some boys and men--will be 
brought into the sex trade in King County alone, and that is a 
number we estimate occurs every year. That doesn't mean 300 to 
500 incidents of actual sexual slavery but new people brought 
into the profession.
    And so it is a serious issue, and children as young as 11 
years old have been brought in and sexually exploited for 
commercial purposes in King County.
    Through the hard work of many individuals in Olympia, such 
as Senator Kohl-Welles, who just testified, Washington State 
has been a national leader in legislation to fight human 
trafficking. And I wanted to take a moment to talk about some 
of the things we have done at the local level to fight back 
against human trafficking.
    King County Superior Court, in partnership with the Center 
for Children and Youth Justice, is leading King County's most 
comprehensive work yet to support children who have been 
commercially sexually exploited. Under the leadership of 
Barbara Mack, the King County Commercially Sexually Exploited 
Children Task Force is working to develop and implement a 
coordinated, countywide response to childhood prostitution.
    As Sheriff Urquhart just mentioned, the Sheriff's Office 
has played a key role in the county's effort to end human 
trafficking.
    The King County Prosecutor's Office works diligently to 
prosecute cases of human trafficking. One highlight is the fact 
that the PAO obtained Washington State's first-ever conviction 
under the State's human trafficking statute, which requires 
prosecutors to prove that the defendant caused the victim to 
engage in forced labor or involuntary servitude for the 
defendant's personal gain.
    The executive department provides some direct services to 
victims and has embarked on educating certain staff about human 
trafficking.
    One significant tool for bringing human trafficking into 
the open is utilizing the National Human Trafficking Resource 
Center hotline. It connects callers to resources, including law 
enforcement and services and information about the crime of 
human trafficking.
    For victims of human trafficking, the public posting of 
information and hotline phone numbers in locations where the 
information may be seen is critical as they might not have 
access to the Internet or to other forms of community-based 
outreach and awareness programs.
    For community members, information and calls to the hotline 
often generate future tips and a better understanding of the 
red flag indicators of human trafficking.
    Now, as a former Federal prosecutor, I prosecuted sex 
crimes, and I have been leading a series of legislative efforts 
in King County to bring better awareness to the National Human 
Trafficking Resource hotline. As you might have seen in the 
last year, in 2012, I drafted legislation to launch a public 
information campaign utilizing metro buses to display the human 
trafficking national hotline number throughout King County.
    King County's efforts were multiplied through a partnership 
with private-sector media companies that included Clear Channel 
Media and Titan, as well as the City of Seattle, with 
strategically placed billboards along roads in certain 
locations across Western Washington. So there were $200,000 
worth of pro bono billboard advertising provided, and over 200 
metro buses where the signs were.
    The antitrafficking campaign was displayed all over King 
County, including more than 200 buses, and those buses covered 
2,134 square miles in King County with a population of over 2 
million.
    The public information campaign raised awareness of the 
signs of human trafficking, leading to an increase in local 
call volume to the National Human Trafficking hotline. And we 
estimate that at least 17 of these calls were crisis calls 
identifying human trafficking situations. And that is 17 lives 
that were potentially saved as well.
    We are still working hard to highlight the national hotline 
number across King County. I have introduced legislation with 
the County Council that calls for the placement of human 
trafficking public awareness materials in all of our county 
facilities, such as public health clinics, transit centers, 
courthouses, and other locations were trafficked individuals 
and the public may see the information. The legislation calls 
upon the county executive to explore information posting 
opportunities with all of our partners--bus shelters, clinics, 
hospitals--where trafficked individuals may utilize services 
and, in turn, see information on where to go.
    The only way we can begin to get a handle on these crimes 
and to stem the tide is to continue to work together and attack 
the problem from all sides, which is what I believe you are 
doing here today.
    Thank you so much, Mr. Chairman, Mr. McDermott, for being 
here. We appreciate the work that you are doing.
    [The prepared statement of Mr. Dunn follows:]
   
   
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
   
    Chairman REICHERT. Thank you, Councilman Dunn.
    Ms. Gomez, you are recognized for your testimony.

  STATEMENT OF NOEL GOMEZ, COFOUNDER AND DIRECTOR OF SURVIVOR 
   SERVICES, SEATTLE ORGANIZATION FOR PROSTITUTION SURVIVORS

    Ms. GOMEZ. Thank you for having me here today. My name is 
Noel Gomez, and I am a survivor of sex trafficking, and also 
the cofounder of the Organization for Prostitution Survivors 
and the director of Survivor Services. I am here to talk a 
little bit about myself and what we are doing.
    I grew up in a middle-class family in Kirkland. Everything 
was normal from the outside. There was a lot of alcoholism and 
violence in the homes that I grew up in. And when I was 12, 
some sexual abuse happened, and that is when things really 
started changing for me.
    I started using drugs and drinking alcohol to deal with 
everything that was going on at home and everything that was 
going on with what had happened to me, and I ended up getting 
pregnant at 16.
    My father wanted to put me into foster care and basically 
get rid of me. He tried to force me to sign papers saying that 
I would go to foster care and basically that didn't happen, and 
he told me just to leave and not come back, and I never did.
    So I left home when I was 16 years old and I was pregnant.
    Once I had my child, his father's family took custody of 
him, and then I was pretty much on my own for the rest of the 
time. I lived my teenage years much like many foster care youth 
do. I ran from here to there, living where I could and getting 
involved in the juvenile justice system.
    The difference between me and a foster care youth in the 
juvenile justice system is I would get out, because as far as 
they knew, I wasn't State-dependent. My friends, the foster 
care kids, would have to stay in juvie until they found a 
placement for them, which would be a foster home for them to go 
to.
    So anyway, usually, the youth that I knew would go and then 
run right away, just because they felt like they had found 
their families on the street and didn't want to be somewhere 
where they didn't feel like they were wanted or belong. It 
wasn't their family.
    So anyway, I met a guy. I met a young man who appeared to 
have it all. He had the car, the apartment, the alcohol, 
everything, the money. He became my boyfriend and ended up 
being a very violent pimp that was very well-known in Seattle 
during that time. He was later murdered in prison, because he 
was prosecuted in 2000 for trafficking minors.
    Anyway, he ended up pimping me and trafficking me from 
State to State. We went all around the West Coast for about 4 
years. I don't have time to go into detail about my life, but I 
can tell you it was like living in the middle of a war zone at 
all times, never knowing who was going to try to kill me or who 
was going to rape me next, and that included my trafficker.
    My story is similar to the story that I hear over and over 
again from the girls who have been trafficked. They say they 
want to be with their real families and they don't want to be 
in the system. They don't want to live in a foster home, 
especially after everything they have been through. They need 
special services at this point.
    Without offering services, we can change laws and do 
things, and that is wonderful, but we need to offer services to 
these youth and the women and girls and boys who have been 
through this.
    I ended up being stuck in the life for 15 years. I had no 
resources, nobody to turn to. There were no services. It was 
the hardest transition of my life.
    I didn't have any skills. I didn't have a resume. I didn't 
have an education. I didn't have anything.
    I got away from my pimp after 4 years, after attempting to 
escape many times. Once he found me and handcuffed me in broad 
daylight, threw me in the trunk of his car and kept me in there 
for hours, and I woke up in Portland.
    So getting away from him was not an easy thing to do.
    Nine years ago, I decided I was leaving the life, no matter 
what, and I was determined to do it. I got my first job in a 
bar, because a friend of mine worked there and was able to get 
me a job.
    Since then, my life has become about helping women and 
girls and boys in the life to get out and get the help that 
they need.
    Our organization offers survivor support groups, art 
workshops, drop-in services, that we need to be doing much, 
much more of. So I decided to start OPS because I know there 
were no services for anybody that was coming out of the life. 
So that is what we are doing.
    Thank you.
    [The prepared statement of Ms. Gomez follows:]
   
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
   
   
    Chairman REICHERT. Ms. Gomez, thank you so much for your 
testimony. I know that everybody in this room, you could hear a 
pin drop as you were telling your story. And sadly, this is not 
a unique story.
    Ms. GOMEZ. Not at all.
    Chairman REICHERT. So I thank you so much for having the 
courage to be here today and share that with us.
    Ms. GOMEZ. Thank you.
    Chairman REICHERT. Ms. Urwiler, you are recognized for your 
testimony.

STATEMENT OF MANDY URWILER, SENIOR NETWORK REPRESENTATIVE, THE 
                      MOCKINGBIRD SOCIETY

    Ms. URWILER. Thank you. Hello, Congressman Reichert and 
Congressman McDermott. Thank you both for your time and effort 
on the Preventing Sex Trafficking and Improving Opportunities 
for Youth in Foster Care Act. It is a really long name.
    My name is Mandy Urwiler, and I work for the Mockingbird 
Society. I am 19 years old, and I entered foster care when I 
was 15. I am still in foster care now, thanks to the Extended 
Foster Care program.
    I could tell you several stories about when people tried to 
get me to turn a trick for them, but there is one in particular 
I would like to share.
    I was 13 and I had just been expelled from my previous 
school because of complications while running away from home. 
Consequently, I started attending an alternative school for 
juvenile court-involved youth. I quickly learned that many of 
my classmates were pimps and drug dealers.
    On my second day at that school, they asked me to be their 
whore and make them money. I said no, but they kept pushing. 
After class let out, they followed me home, continuously 
telling me that they needed me and I could make good money.
    I went to class the next day and was still being pressured, 
but I held my ground.
    This time, when class let out for the day, I was beaten 
brutally for saying no. I was shoved down and kicked while I 
was on the ground. I was punched and had my head slammed into 
the concrete. But I still said no.
    When I went home that night, still being followed by my 
attackers, I told my dad what happened. That may have been the 
only time I ever saw my divorced parents agree on something, 
and that was to pull me out of that school.
    I was lucky because, in this case, it was a situation I 
could get away from.
    Not every young person living in foster care or in a group 
home gets that chance, especially when they are a minor and may 
not have a trusted adult advocating for them. Sometimes, 
especially if the youth have run and are living on the streets, 
the pimps are adult predators who are more sophisticated and 
brutal than the young group that came after me.
    Sometimes the youth being pressured doesn't have the 
support wrapped around them to help them resist the way I did.
    I saw girls who had run away from their foster homes and 
were arrested for prostitution. I later talked to them and 
found out they were afraid to leave the life because they had 
been assaulted. They weren't given help to escape the clutches 
of these evil people who hurt them. Instead, they were treated 
as criminals by the police. I believe that they were victims, 
not criminals.
    I met these girls who were my age and even younger, and saw 
what could have happened to me. I don't want to ever, ever have 
to see that again, because no one should have to go through 
that. I don't want anyone else to have to make the decision 
between injury and sel1ing their bodies.
    This is an epidemic that needs to stop. We say children who 
are removed from their families will be safe from further abuse 
and neglect. We must protect vulnerable youth in care from 
predators like the ones who hurt me.
    As a strategy for preventing sex trafficking, this bill 
addresses the topic of normalcy for foster youth. I am happy to 
see that this bil1 encourages States to adopt a prudent parent 
standard to support normal life experiences for youth in care, 
which is an effort that is already underway here in Washington 
State.
    I believe if youth had more opportunities to do normal 
things they want to do without fear of running into barriers, 
less youth would run from care.
    When I was in my foster home, my foster parents couldn't 
sign for the simplest of things, like school field trips, job 
fairs, and college tours, and this negatively impacted my 
grades, and I lost opportunities to explore educational and 
career opportunities and resources.
    But field trips aren't the only things I missed out on. I 
never got to spend the night with friends, because my foster 
parents were afraid of the liability. I didn't get my learner's 
permit from the State for the same reason.
    And in my experience, this path that leads too many foster 
youth to be preyed upon is driven by a lack of control, 
opportunity, and support.
    I believe this bill will help youth by giving them more 
input and control in their lives by allowing foster parents to 
give their youth access to opportunities that are taken for 
granted by others, and by giving youth who have already started 
down a dangerous path a way out.
    I ask the subcommittee to maintain its commitment to the 
pieces of this bill that reinforce control, opportunity, and 
support for youth in care.
    Thank you.
    [The prepared statement of Ms. Urwiler follows:]
   
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]  
   
   

    Chairman REICHERT. Thank you for your testimony.
    To both of you, thank you for your courage and your 
willingness to be here today to share your stories with us.
    Ms. Rains, you are recognized for your 5 minutes.

  STATEMENT OF DAWN RAINS, CHIEF OPERATING OFFICER, TREEHOUSE

    Ms. RAINS. Thank you for inviting me to testify before you 
today. My name is Dawn Rains, and I serve as the chief 
operating officer of Treehouse, a Seattle-based nonprofit 
serving foster care youth in Washington State. I am also a 
former foster parent.
    At Treehouse, our mission is giving foster kids a childhood 
and a future. We are a major partner with Washington State's 
child welfare system, providing foster youth with 
individualized academic support, access to critical 
extracurricular activities and community resources, and 
material needs, like clothes, toys, and school supplies at our 
free store, the Wearhouse. We provide this support to over 
6,000 foster youth in Washington State every year.
    We have set an ambitious goal that foster youth in King 
County will graduate high school at the same rate as their 
peers with a plan for the future by 2017. Currently, only half 
of youth and foster care graduate high school on time and fewer 
than 2 percent will earn a 4-year college degree.
    Without a high school diploma and a plan for the future, 
foster youth experience disproportionately high rates of 
poverty, homelessness, incarceration, mental illness, substance 
abuse, and sexual exploitation when they age out of foster care 
or are missing from care.
    We are pleased to endorse the proposed legislation. 
Children come into foster care through no fault of their own. 
We as a community have a special responsibility to kids in 
foster care, and this proposed legislation improves future 
prospects for youth in our community.
    For my testimony, I would like to focus on two of the major 
provisions of the bill that we are particularly passionate 
about.
    The first is how youth-centered planning is essential to 
building foster youth engagement and investment in their 
future. We support empowering every youth to participate in 
planning their own future and transition from foster care and 
to begin that process at the age of 14. Current transition 
planning in Washington State child welfare is compliance-and-
checklist-oriented and begins too late to have the most 
powerful impact. Starting in 2012, Treehouse began implementing 
youth-centered, or what we call student-centered, planning with 
middle- and high-school aged youth in foster care as part of 
our academic support program called Graduation Success.
    Student-centered planning is an evidence-based practice 
designed to elicit and inspire youth's own plan for the future 
within the context of support from the adults in their lives. 
When youth set their own course, they build self-determination, 
resilience, and problem-solving skills that lead to confidence 
and self-sufficiency as young adults.
    While student-centered planning is much more labor-
intensive than what public system social workers are typically 
able to provide, we believe that the impact will be powerful in 
building aspirational and proactive behavior that leads to 
better life outcomes.
    So how does this work in the field? Every youth in 
Treehouse's Graduation Success program has an education 
specialist that provides them with a critical stable adult 
presence in their lives and partners with social workers, 
caregivers, and schools to monitor academic progress and ensure 
that they receive services tailored to their individual needs.
    Foster youth work together with their education specialist 
to define aspirational goals and educational milestones that 
will help the youth stay on track to achieve those goals.
    They then provide coaching to develop positive mindset and 
drive progress toward meeting goals in their plans.
    Education specialists are uniquely situated in a critical 
role if youth should be at risk or actually go on the run, and 
they are being trained on how to identify the risk factors 
associated with sexual exploitation to support and redirect 
these youth.
    If youth should go on the run, they oftentimes keep in 
touch with our staff and/or visit our Wearhouse to stock up on 
clothes as their first stop when they run from care.
    We are currently working with DSHS Children 
Administration's Missing from Care workgroup to strategize how 
to locate and reengage these youth in support services.
    We see every youth in foster care is at risk of poor or 
failing outcomes and believe each need an education specialist.
    We are currently serving over 500 middle school and high 
school youth in King County in our Graduation Success program 
and are on course to fully saturate the population of foster 
youth in King County.
    The second major provision of the bill that I would like to 
address is the importance of creating normalcy in the lives of 
youth in foster care for improved outcomes.
    We applaud the empowerment of licensed foster parents and 
relative caregivers via a reasonable and prudent parent 
standard, which would allow them to make day-to-day decisions 
about a youth's ability to participate in normal childhood 
experiences like sleepovers with friends, school field trips, 
summer camps, and extracurricular activities.
    Currently, bureaucratic barriers impede court and social 
worker efforts and frustrate caregivers without adding value 
for youth. Normal childhood activities are foundational 
experiences that help youth develop interests, skills, and 
dreams for the future. The relationships and connections that 
are built doing these activities contribute to a youth's sense 
of belonging, their mental health, and well-being.
    At Treehouse our Little Wishes program helps to create 
normalcy for kids in foster care by giving them access to self-
selected activities and experiences. This is a critical piece 
of our model because we know kids who are positively engaged in 
school and community have better academic and life outcomes. We 
also know that these activities build a critical protective 
factor that make youth less vulnerable to exploitation and sex 
trafficking.
    Thank you.
    [The prepared statement of Ms. Rains follows:]
   
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
   
   

    Chairman REICHERT. Thank you for your testimony. One of the 
things that is a little different about having a hearing here 
in the district is that when the timer goes off, people stop 
talking.
    [Laughter.]
    Chairman REICHERT. Back in Washington, D.C., they just keep 
on going, so thank you for being so punctual and respectful of 
the timer.
    But I know that Jim has to leave soon for another 
appointment, and the senator has to leave soon, too, because 
they are still in session. So it is especially great to have 
you take time out of your day here to be here. And because Jim 
has to leave early, we are going to start with his questioning 
first, and then I have a couple questions.
    But, Jim, go ahead.
    Mr. MCDERMOTT. Thank you, Dave.
    Ms. Gomez, your testimony was very compelling, but the 
thing that I didn't hear, and I try to figure out, you have two 
kinds of kids who are caught up in trafficking. You have 
underage kids who are out there surviving, just barely getting 
by. And then you have people who have been immersed in the life 
for a long period of time. And you said 9 years ago or 
something you turned a corner. Tell me how that happened. What 
was offered, or what did you stumble into, or who did you meet, 
or how did that transition occur? Because I think one of the 
things we struggle with is trying to figure out how do we take 
people who have been way into the system, how do we then help 
them not wind up in much worse circumstances.
    Ms. GOMEZ. And that is why our organization is survivor-led 
and run. I think that it is important to have survivors as 
mentors and advocates for people who have been in the life.
    For me, there was no support. I got into AA and met people 
in AA who had been through things like I had. And that was 
really the only support I had. There were no services or 
anything like that.
    So for me, I was just so angry and so tired of it, that, 
you know, I just had to get out. I had to.
    Mr. MCDERMOTT. Was the support of AA members of a similar--
it was really a support group, is what you are saying.
    Ms. GOMEZ. Yes, and that is why I started specific support 
groups for survivors, instead of having--because AA is not for 
that, you know. It is for alcohol. But there are a lot of women 
in AA and NA who had previously been in the life. And that is 
how I got help, really, and support was from the recovery.
    Mr. MCDERMOTT. Ms. Rains, you talked about involving 
youngsters in their own planning. Children go into foster care 
all the time in this country. I mean, Dave is responsible, and 
I was responsible, for half a million foster kids all over the 
United States. And they go for different reasons. How do you 
set up something at the State level--or does it have to be at 
the county level? Or where is it set up that youngsters, 
somebody sits down with them and says, ``Now, look, you have a 
bad situation at home, and you are not going home. That is not 
possible. So how are we going to plan for your life from here 
on?''
    Where does that occur? Where should it occur?
    Ms. RAINS. Yes, there is planning that happens in the child 
welfare system with their social workers. In Washington, we 
have what is called a 17\1/2\ meeting, where the final planning 
happens.
    Mr. MCDERMOTT. That is too late.
    Ms. RAINS. It is way too late. We would love to see that 
more proactive youth-involved planning happening from, again, 
from the age of 14 on, because youth need to see a future for 
themselves. In a situation where youth in foster care give up, 
they have really no say or control in what is happening to 
them--where they live, who they live with--this is a way for 
them to reclaim some of that.
    And we are doing it on a very local scale, with 500 youth. 
We would love to see that program expand statewide, because it 
is time-intensive. It relationship-based. We have to really 
form those relationships in order for youth to trust us and 
engage their caregivers and their social workers and the folks 
at school in charting a course.
    As an interesting side note, someone on my staff is doing a 
Ph.D., and her dissertation is looking at former foster care 
alums who also experienced special education while they were in 
foster care. And she has been interviewing these young adults 
and almost every single one have goals and dreams and 
aspirations for their future, but no one taught them how to map 
the course to get from A to B. And that is what we are really 
trying to build in with the youth that we are working with.
    Mr. MCDERMOTT. This is funded by your own private donations 
to your--and there is what? Eight thousand kids? How many kids 
are there in the State who are in foster care?
    Ms. RAINS. Between 9,000 and 10,000.
    Mr. MCDERMOTT. Senator Welles, where are we going to get 
money to do that? What she is describing for 500 kids in one 
program?
    Ms. KOHL-WELLES. Well, obviously, Congressman McDermott, 
that is an enormous challenge and is the discussion of the day 
in Olympia.
    We have the requirements to meet the McCleary decision for 
fully funding K-12 education. We have increasing demands on our 
social safety net and higher education and transportation. And 
so, with our system of having--we are one of a handful of 
states that does not have an income tax, so we have tax issues. 
And we also have a very generous citizen initiative system in 
our State.
    Legislators in many ways have our hands tied in terms of 
funding all of the needs that we have.
    Mr. MCDERMOTT. I mean, the reason I raise this issue is 
that I want the people who see and hear about what happened 
here today to understand that doing what they are doing at 
Treehouse is not done on the cheap, nor is it done without 
money. You do need money to do that kind of stuff.
    And if we are serious about trafficking, then we have to 
talk about money at some point, because to give social workers 
the time to have age 14 meetings instead of an age 17\1/2\ 
meetings is going to take time for people to sit down and talk 
with kids about where they are going to go, how are they going 
to do this.
    Ms. KOHL-WELLES. Well, we have our revenue forecast coming 
out, I believe tomorrow. And we know that our State is coming 
out of the great recession, but it is a recovery that has been 
slow. We are sales-tax-reliant, have one of the most regressive 
if not the most regressive tax system in the country, so our 
revenue, it is very difficult to have a sufficient amount 
coming in.
    But we are trying. We are making progress, and I am pleased 
about that.
    Mr. MCDERMOTT. Ms. Gomez, did anybody ever have that kind 
of conversation with you in your trips through juvie downtown?
    Ms. GOMEZ. No.
    Mr. MCDERMOTT. You didn't need to turn it on to tell me 
that.
    [Laughter.]
    Ms. GOMEZ. On the streets, there was nothing anywhere, no. 
Nobody.
    Mr. MCDERMOTT. So when you were processed through the 
juvenile justice system, since you were not a foster kid and, 
therefore, State-dependent, they just opened the door and said 
goodbye.
    Ms. GOMEZ. Yes. I could be released to my family, but they 
would give you a bus ticket.
    Mr. MCDERMOTT. How about you, Ms. Urwiler? What was your 
experience? When did somebody start talking to you about what 
you might become?
    Ms. URWILER. Honestly, what I have thought of on what I 
might become, it started before I entered foster care. I 
started thinking about where I wanted to go. But I never really 
had anybody to help guide me until I talked to my independent 
living case manager, which has been amazingly helpful.
    Mr. MCDERMOTT. How old were you then?
    Ms. URWILER. Fifteen or 16. And then from there, I have 
gotten help with filling out my FAFSA and all of my college 
forms, still a hugely confusing process, but I am still 
confused on where I am going. I don't know where I want to go. 
I thought of everything from being a doctor specializing in 
emergency pediatrics to getting a Ph.D. in theoretical physics 
or a law degree or going into poli-sci. I don't know where I am 
going.
    Mr. MCDERMOTT. How old are you?
    Ms. URWILER. Nineteen.
    Mr. MCDERMOTT. You have a little while. You don't have to 
make every decision yet.
    [Laughter.]
    Mr. MCDERMOTT. Dave and I got into this late in life.
    Thank you all very much for your testimony. And I apologize 
for having to leave.
    Ms. KOHL-WELLES. Congressman, can I bring up one more thing 
I think might be helpful to other young individuals who have 
been facing similar experiences?
    We have a very new but I think has a huge potential 
scholarship program in our State called College Bound. And we 
are able to reach out to young people in the seventh and eighth 
grade who are low-income. And they are able to make a pledge to 
keep a C average and stay in school. And if so, then they 
receive a scholarship from the State, which is sizable, along 
with other scholarships and grants that we have for the funding 
of their college education.
    Chairman REICHERT. I thank Jim for being here today.
    And, Senator, if you have another comment or two you want 
to make, that is fine.
    Ms. KOHL-WELLES. Thank you. I would like to make one more 
comment before I leave.
    Chairman REICHERT. Please.
    Ms. KOHL-WELLES. I appreciate that.
    As I mentioned earlier with the case with Backpage.com, 
which is an online advertiser that supposedly and admittedly 
makes over $21 million a year on these online adult escort 
services, what we ran into with having to settle the case for 
our legislation, our new law, was, as I mentioned, the Federal 
Communications Decency Act, which was enacted into law in 1996. 
And the Internet has grown rather sizably since that time.
    So we have a measure moving through the Legislature, Senate 
Joint Memorial 8003, which will request Congress to amend the 
Federal Communications Decency Act to reflect the current scope 
of the Internet and take into account the role that IPOs play 
in the advertising and profiting from sexual exploitation of 
minors.
    Right now, the advertisers are not responsible for third 
parties who advertise on them in terms of the content, and we 
really think there has to be a change made.
    So thank you for listening to that request.
    Chairman REICHERT. You are welcome. Thank you for that 
thought. And thank you for your testimony and your hard work.
    Ms. KOHL-WELLES. Thank you.
    Chairman REICHERT. It takes all of us to have an impact on 
tragic issues like the one we are dealing with.
    Ms. KOHL-WELLES. And it is bipartisan.
    Chairman REICHERT. Absolutely.
    Ms. KOHL-WELLES. It completely has been unanimously passed, 
in terms of the legislation. Thank you.
    Chairman REICHERT. Thank you. Good luck in Olympia today.
    Ms. KOHL-WELLES. Thank you.
    Chairman REICHERT. Well, I would just like to make a couple 
comments and then I have some questions, too.
    First of all, I think it is important for you to know that 
we are having this hearing today, but as you know, we come to 
this all with different experiences. Jim's experience in child 
behavior and his work prior to Congress in understanding child 
behavior gives him a passion and compassion for young people, 
and a certain insight that is very beneficial to the Ways and 
Means Committee. There are other Members of the subcommittee 
who bring different experiences, but are also just as 
passionate and compassionate.
    I think that is a critical thing for Americans to 
understand, that it is just not a machine of legislation back 
in Washington, D.C., with a lot of uncaring, process-oriented 
people.
    And in my own personal experience, as most of you know, my 
story starts out very similar to Ms. Gomez's story, in that my 
family was also a home of violence and alcohol, and I ran away. 
But I had a football coach and a geometry teacher, which is one 
of the few classes that I did okay in. For some reason, I got 
the circles and squares and triangles.
    I don't know how I did that, John.
    But you know, there was a person in my life that I remember 
sort of grabbed me by the back of the collar and said, ``Dave, 
you are headed down the wrong road.'' But where was I to go?
    And I lived in a car for a while when I was a senior in 
high school. I was one of the fortunate ones that didn't get 
sucked into the rest of the lifestyle.
    But then I became a police officer and saw it as a 21-year-
old police officer on the street. And as John said, Sheriff 
Urquhart said, that it is not a nostalgic time to remember back 
to. It is a sad time to recall how people were treated and the 
thought process that not only police officers but the entire 
community really held toward people who were on the street.
    And then when I began Green River, I was only 31 years old, 
by the way, and I had dark brown hair then, believe it or not.
    [Laughter.]
    Chairman REICHERT. Thirty-one years old, and that was the 
beginning of 19 years of working with young ladies like you.
    And the story that you told, again, I want to make clear to 
the audience and people who might hopefully listen to the 
testimony today, is not a unique story.
    And the difficulty we have in trying to convince young 
people to please leave the streets because of the danger we 
knew that lurked out there in the presence of a man who is now 
in prison for 49 consecutive life terms, but not only him, 
others.
    As you said, Ms. Gomez, the life that our young people are 
leading that have left their homes, whether foster children are 
not, have left violent and dysfunctional homes and end up on 
the street in the arms of people like some of the descriptions 
that we heard today--I don't even like to mention his name--is 
a battle. It is a war. And they are in a world of violence.
    Imagine 11, 12, 13, 14, 15, 16 years old and that is your 
life.
    So I am so grateful for you and the work that you do.
    And, Mandy, what did you want to be? I think a rocket 
scientist?
    [Laughter.]
    Chairman REICHERT. I hope that you make that. You have 
hope, and you both have hope. And we all go through struggles 
and now you are applying that struggle to help people.
    So my question, first of all, goes to the sheriff and to 
the councilman. I think Washington State is known for being a 
collaborative state. State, local, and city governments work 
together a lot on issues. And you have described some of the 
ways you are working.
    Where do you see your efforts in working together going 
from here? What are the next steps? What do you see in bringing 
all this together, because I know back when I was in the 
Sheriff's Office and even in this job, it seems to me that 
there are so many programs and plans and people, all working 
but sometimes at cross-purposes and repetitive efforts.
    What are you looking to in the future, to bring all of 
these valiant efforts together to coordinate the efforts so we 
can be more efficient and effective in saving lives?
    Sheriff URQUHART. I think what we have to stop doing is 
fighting. And we talked about it today, Congressman McDermott 
mentioned it, and Senator Kohl-Welles mentioned it. There is 
not enough money for all of us, not enough money for the 
Sheriff's Office, not enough money for Treehouse, not enough 
money for Mockingbird.
    And what we have done in the past, we have fought over 
those funds. And guess who normally wins? The police. It is a 
much easier sell to the public. It is a much easier sell to the 
council and county executive to fund the police department.
    And we have been real happy with that, but that is the 
wrong way to do it. We have to quit fighting over this limited 
number of funds and work together.
    I much prefer to be in front of the county council, in 
front of Councilmember Dunn hand-in-hand with the social 
service providers and divvy up the money that way. They are 
just as important on any social problem, including this one, as 
the police are. And not just the Sheriff's Office but other 
police departments as well have to realize that if we are going 
to be successful.
    To me, that is the next step, getting all of us on the same 
page and quit fighting over the money.
    Chairman REICHERT. That is a small pot that we all fight 
over.
    Councilman?
    Mr. DUNN. I think John is right on there. I would just add 
to that the way that we are approaching the issue of human 
trafficking, generally, we are very much in sort of the 
beginning to mid-stages of understanding the issues and 
developing the best practices to deal with them.
    You and I worked together more than a decade ago on gun 
violence. We put together a plan based on a lot of experiences. 
That plan worked over time.
    We did the same thing with ecstasy and methamphetamine, 
getting those labs out.
    So there is an evolution that is going take a period of 
years, as we understand from the victims' perspectives and what 
the nonprofits need, who are those trigger people or 
organizations that are going to tend to pull these people out 
of that horrible life.
    So what I think we should be driving toward is nonprofit 
local, State, and Federal sets of best practices where we can 
all emphasize our areas of expertise. We need to find 
additional funding sources. Maybe we need to redirect existing 
resources. We can do a better job of raising money from the 
private sector, which I think we are starting to get better at 
as we do what the most important thing here is, is raising 
awareness, Congressman. That is one of the things that has been 
found to be lacking.
    This issue is probably the least understood and least 
reported crime happening in our community today that somebody 
is prosecuted. People don't understand it. They are still in 
that mentality that there is a prostitute. That is a criminal 
now. That is a victim.
    So those are the things we are working toward, and 
ultimately, a series of best practices promulgated with the 
help of Congress, perhaps through the Office of Justice 
Programs at the Federal level, may be the way to go.
    Chairman REICHERT. Thank you. And I do think that it is an 
invisible sort of mindset that the people have.
    Back in the Green River days, and my sheriff days, John, as 
you worked on the street--and I know some of the other law 
enforcement officers in the room--I often wondered and thought 
about people who were driving from home to work and drove by 
all these young girls and boys on the street but never saw 
them. And there were hundreds of them.
    It just sort of was a shock to all of us that no one saw 
anything as you went back to the scene to try to gain 
information. There were no witnesses. However, there were lots 
of people present. And that is a sad commentary.
    I do think that you touched on something, both of you, and 
Ms. Rains has touched on this, too, in her testimony. I think 
when you think about 9,000 to 10,000 young people in foster 
care and prevention, one of the things that we have to take a 
look at is why are these 9,000 to 10,000 young people in foster 
care in the first place.
    And there is really a beginning seed of where we need to 
start. And then those that are in foster care, of course, we 
really need to wrap our arms around them as a State.
    And I know there are people here from DSHS. And I thank you 
so much for your work and thank you for being here today, too.
    I know DSHS is involved with the Rescue and Restore effort, 
and I think that that is a national effort.
    And, Councilmember Dunn, you referred to Project Safe 
Neighborhoods, which was an effort to end gun crime violence. 
But I think Rescue and Restore could be a similar effort in 
really eliminating human trafficking. It is something I think 
that we could grab onto at a national level. And I think it 
would take a State like Washington State, which is really 
active and forward-thinking, to take Rescue and Restore, make 
it a statewide program, a model for other states to model 
after.
    I wanted to ask Mandy, I know you touched on this just a 
little bit. If I can call you Mandy, if that is okay?
    Ms. URWILER. No problem.
    Chairman REICHERT. So I really like how you characterized 
one of the drivers behind becoming a victim of trafficking, is 
that youth in foster care feel they have a lack of control. 
Where do you think, in some of the areas that we talked about 
control, how do you think that we can give youth control? What 
are some areas that you see, from your perspective?
    Ms. URWILER. For me, I was lucky because I actually had a 
lot of control in my planning, because I had an attorney, 
because I was lucky to be in one of the very few counties that 
gives attorneys to foster youth.
    But I think the control really comes in when I was able to 
sit with my social worker and my attorney when I was looking at 
foster homes to go to. And I actually got to interview the 
foster parents, and I was able to say I don't want to be in 
this placement because their values don't match up with mine 
and I don't think we would get along. I was able to have 
control on where I lived.
    I was able to have control on when I got to go see my 
family, because I was able to talk with my social worker and my 
attorney and set up when the best visit times for me were. I 
didn't have school on Fridays, because I was going to a school 
that didn't have class on Fridays, so my visits were on 
Fridays. I could take the bus up from Shelton to Seattle to see 
my family.
    But I didn't have control where I couldn't go on any school 
field trips. I wasn't allowed to go to a friend's house. And my 
friends, by the way, were a huge support to me.
    For a short time, my ISSP, the service plan, said I was not 
allowed to sit in my room and be on the phone with my friends 
and family from back home all day, which my first 2 months 
spent in care, I didn't come out of a room and spent pretty 
much 24 hours a day on the phone with my support network at 
home. I was told I couldn't do that, so I was cut off for 
several months from being able to contact people when I needed 
to. When I was getting ready for bed, I would call home and 
say, ``Hey, I don't know what is going to happen and I am 
scared, and I want to go home, and I miss you.'' And then I 
wasn't allowed to do that. So that is a big control piece for 
me.
    Chairman REICHERT. Thank you. Yes, so it is really the 
little things just about being a normal kid growing up in a 
home.
    Ms. Gomez, I think that Mr. McDermott touched on a question 
that I want to go back to, and, again, going back to my 
experience in trying to take people off the street, to either 
get them to the YWCA or to a foster home or somewhere off the 
street.
    How do people come to your organization? How do they come 
to you? Are you on the street? Do you have people on the street 
trying to pull people out of that life? Do you have referrals 
sent to you? Do police officers refer to you? How does that 
happen?
    Ms. GOMEZ. Yes, we have a relationship with the Innocence 
Lost task force. They make referrals to us. Different 
organizations make referrals to us.
    A lot of it is word of mouth. A lot of the women and girls 
that we have been working with have heard from other people 
about us.
    We get referrals from everywhere. I think that everybody in 
social work is looking for somewhere to send their client who 
had been in the life or been involved. And really, there are 
not many resources.
    So we are overwhelmed with people wanting to get in and get 
into the program.
    Chairman REICHERT. And it is not just about getting out of 
the life, but you are also talking about drug addiction, 
alcohol addiction, and all of those things, too, that go along 
with it.
    Ms. GOMEZ. Yes.
    Chairman REICHERT. We know that sometimes that it is more 
than once off the street and into treatment, back again, and 
then back again. So it is a long-term effort to even save one 
life. It doesn't happen overnight.
    So I know that is a huge struggle. Thank you so much for 
what you are doing.
    And one of the things we want to do is help collect data, 
because I think that as we talked about some of the future 
efforts, we really need to make our efforts focused on where we 
know the money is going to do the most good. So the collection 
of information and data from all of you in this room who are 
involved I think it is really helpful in helping us identify 
where to really put our energy.
    And just one last question for Ms. Rains. So when I 
mentioned why are kids in foster homes anyway, I think we have 
some of the answers to that, but how do we keep kids in their 
families? Is your organization involved in looking at that data 
at all, or working with other organizations that have looked at 
that data? Do you think that is important for us to examine a 
little bit closer?
    Ms. RAINS. Absolutely. We are very excited about the 
implementation in the State of Washington about family 
assessment response, which diverts families and the youth from 
coming into foster care in the first place, provides intensive 
in-home family support. And it will be a program that will be 
rolling out over the next couple of years here in Washington.
    But we believe that kids in need should stay with their 
families whenever possible, and so we are very excited about 
that, learning from several other States that have implemented 
differential response systems.
    And when it is necessary for safety reasons to have youth 
placed in foster care, I think surrounding them with as many 
supporters as possible, giving them regular access to their 
families, trying to reunite, reunify, families whenever 
possible, is absolutely the best way to go. And Washington is a 
leader in that arena.
    We are also working every day with about 40 percent of our 
youth in foster care in King County, for example, who are 
actually place with relatives. And working with those families 
to keep kids in their neighborhoods and family systems as much 
as possible I think leads to additional protective factors that 
can help keep youth off the streets and out of sex trafficking.
    So all of those elements, I think, are important.
    Chairman REICHERT. Yes, I agree. And thank you so much for 
your work in that area, and I look forward to the roll-out of 
the program. And if there is a role for us to play in that, 
maybe we can partner with you, along with everyone else at the 
table today, and in the room.
    I was a foster grandparent for a while, until my two 
grandkids were adopted. And I have to hand it to my daughter 
and her husband. The visits with the biological mothers are a 
tough thing to do, especially after adoption. But that has 
continued on.
    And both of these young women were drug and alcohol 
addicted, meth addicted, moms and on the street. So these two 
young kids, they have a stable home. But the visits with their 
biological moms still take place, so I think that is an 
important factor.
    I want to thank all of you so much for attending the 
hearing today, and thank all of you for your testimony.
    The important thing is that we do not want this effort to 
end here today for the Federal Government. So I want you all to 
know that.
    I know one of my least favorite things to hear when I was 
the sheriff, or when I was working on a task force as the lead 
investigator, was from some Federal agency, ``I am from the 
Federal Government, and I am here to help.''
    When I say that today, I really mean that. And I know that 
Jim does, too, from the bottom of his heart.
    We want to be able to help in this effort. And I think we 
have something to offer besides legislation, hopefully. And so 
thank you again for all your work.
    Just for the record, I would like to thank all of our 
witnesses and Jim McDermott for their testimony and attention 
to this important issue. I look forward to our continued work 
as a subcommittee as we work to prevent sex trafficking of 
children in our foster care system.
    We received a lot of excellent testimony and 
recommendations today, which we will review closely as we plan 
our next steps.
    If members have additional questions for witnesses, we will 
submit them to you in writing, and we would appreciate 
receiving your responses for the record within 2 weeks.
    Chairman REICHERT. The committee stands adjourned. Thank 
you.
    [Whereupon, at 10:19 a.m., the subcommittee was adjourned.]

                                 [all]
</pre></body></html>
